                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-15A                                   Office of Inspections                                February 2013




                       Inspection of
              Embassy Buenos Aires, Argentina




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a co py directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                                     1
Context                                                                           3
Executive Direction                                                               4
  Strategic Direction                                                             4
  National Security Decision Directive 38                                         5
  Mentoring and Professional Development of First- and Second-Tour Officers       5
  Public Outreach                                                                 7
  Morale and Security                                                             7
Policy and Program Implementation                                                 8
  Political Reporting and Analysis                                                8
  Innovative Practice: Trafficking in Persons Awareness Training for Teamsters    9
  Economic Reporting and Analysis                                                10
  Environment, Science, Technology, and Health Reporting and Analysis            10
  Law Enforcement Working Group                                                  10
  Foreign Assistance                                                             11
  Public Affairs                                                                 11
  Consular Affairs                                                               14
  Security                                                                       18
  Innovative Practice: Automated Mail Logging System                             19
Resource Management                                                              20
  Management Operations                                                          21
  Human Resources                                                                21
  Financial Management                                                           24
  International Cooperative Administrative Support Services                      26
  General Services                                                               26
  Facility Management                                                            29
  Information Management                                                         31
Quality of Life                                                                  35
  Community Liaison Office                                                       35
  Health Unit                                                                    35
  Schools                                                                        35
  American Recreation Association                                                35
Management Controls                                                              37
  Adjudication Reviews                                                           37
List of Recommendations                                                          38
List of Informal Recommendations                                                 42
Principal Officials                                                              44
Abbreviations                                                                    45




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     Embassy Buenos Aires is a well-run and productive post. The Ambassador and deputy
          chief of mission (DCM) have developed a strong partnership that provides clear and
          consistent leadership. Together they have forged and support a cohesive country team
          that works together in pursuit of an appropriately focused Integrated Country Strategy
          (ICS).

    •     The embassy has shaped its staffing to match ICS priorities. Overall, the embassy has
          reduced its staff by 14 American and locally employed (LE) staff positions in the last 2
          years.

    •     The embassy is among the top 10 visa processing posts worldwide. Streamlined
          processes and productive, innovative staff allow the section to keep wait times current,
          even though the work space is outdated, overcrowded, and unhealthy.

    •     The embassy should develop a structured professional development and mentoring
          program, overseen by the DCM, for its 19 first- and second-tour (FAST) officers.

    •     The chancery building contains crowded work areas that present health hazards and other
          areas that are less intensely used. In addition, some staff working outside the building
          must be moved into it. As result, the embassy needs a Bureau of Overseas Buildings
          Operations (OBO) space survey to allow the chancery to accommodate all staff in healthy
          work areas.

    •     The management section faces internal and external challenges that have affected its
          performance, but it is taking steps to improve customer service in 2013.
(b) (5)




    •     The Equal Employment Opportunity (EEO) program is stagnant and needs to be
          reenergized, including training of a second EEO counselor and publicizing EEO policies
          and procedures.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between September 4 and October 1, 2012, and in
Buenos Aires. Argentina, between October 24 and November 15, 2012. (b) (6)


               conducted the inspection.




                                      2
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
       One of Latin America’s largest and most developed countries, Argentina is approaching
30 years of democratic rule. The country fell from a position of wealth and promise in the early
20th century when it was the world’s fifth largest economy. From 1930-83, few Argentine
presidents completed their terms due to a series of military coups. In 2001, with mounting public
and external indebtedness, the country suffered a major economic, social, and political crisis.

        In 2002, Argentina had the largest sovereign debt default in history ($82 billion), and
owes $9 billion to the Paris Club, including $500 million to the U.S. Government. The economic
collapse placed almost 60 percent of Argentines under the poverty line. Real gross domestic
product rebounded to grow by an average 8.5 percent annually over the subsequent 6 years.
President Cristina Fernandez de Kirchner succeeded her husband in 2007. Expansionary fiscal
and monetary policies, together with import and export restrictions, have driven inflation as high
as 25 percent. The Argentine Government understates the rate of inflation, which has become a
point of dispute with the International Monetary Fund. In March 2012, the United States
removed Argentina from the Generalized System of Preferences due to Argentina’s failure to
comply with international arbitral judgments in favor of U.S. firms that suffered expropriation.

        Bilateral relations are politically difficult and economically complicated. The United
States enjoys a trade surplus and is Argentina’s second largest foreign investor. More than 500
U.S. firms operate in Argentina, but the country only ranks 124th out of 180 in the World Bank’s
ease of doing business index. With the exception of the oil and gas sector, there has been almost
no new U.S. investment in Argentina for 18 months. Increased Argentine import restrictions led
the United States to request World Trade Organization consultations. In 2011, nonimmigrant visa
issuance increased by 40 percent over 2010, placing Argentina in the top 10 countries in the
world, but visa applications began to decline after Argentina introduced currency controls in
2012. In February 2011, bilateral relations chilled when Argentina seized U.S. military
equipment in a joint-combined education and training event. In November 2011, Presidents
Obama and Fernandez de Kirchner cited international security, drug trafficking, the fight against
terrorism, and trafficking in persons as areas of shared concern. In 2012, the United States
relaxed restrictions on military engagements; bilateral cooperation remains good in the areas of
science and technology, nuclear nonproliferation, clean and renewable energy, and education.
Argentina becomes a rotating member of the United Nations Security Council for a 2-year term
in January 2013.

         The Department of State (Department) and Washington agencies value the embassy’s
skillful management of a challenging bilateral relationship. With 371 employees, including 129
U.S. direct hires, the mission has an overall FY 2012 program budget of $4.8 million. Persistent
high inflation corrodes the embassy’s budget and has seriously reduced LE staff real earnings;
employees’ performance has suffered. In 2011 and 2012, the Department granted Buenos Aires
LE staff exceptions to the worldwide salary freeze and continues to examine ways to respond to
their needs. Poor relations with the host government have caused the embassy to limit its public
profile. Argentine customs and shipping regulations negatively affect embassy morale and
operations. In addition, employees are concerned about increasing crime in urban and residential
areas.

                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Embassy Buenos Aires is well run and productive. It is led by a first-time, noncareer
Ambassador, who is new to the region but has excellent language skills, and by a DCM with
considerable regional experience serving in his second DCM assignment. The two have forged
an exceptionally strong and effective partnership. Senior officials in the Bureau of Western
Hemisphere Affairs (WHA) identify the embassy front office as one of the strongest teams in the
region. Country team members value how well the Ambassador and DCM work together in
leading the embassy. This partnership is reflected in the rest of the front office staff, which is
cohesive and well coordinated. Communications and action assignments from the front office
staff are clear and appropriate.

Strategic Direction

        To deal with the proven potential for bilateral issues becoming political footballs in the
local press and politics, the Ambassador and DCM have developed clear policy priorities and
embassy processes that result in well-coordinated policy execution. The embassy ICS, developed
through cluster groups involving all sections and agencies, appropriately reflects U.S. interests
and the special circumstances in Argentina. It is a clear statement of priorities and is such a
useful document that the Office of Inspector General (OIG) team encouraged the Ambassador
and DCM to develop a brief summary of the ICS and provide it to new LE staff and U.S. direct
hires.

        The Ambassador and DCM encourage an integrated country team approach to the
embassy’s work—and the embassy employees have embraced this work ethic. Much of the
embassy’s day-to-day coordination is through regular meetings of key staff. The weekly country
team meeting is inclusive, well run, and useful for all attendees. The Ambassador encourages
broad attendance, particularly by newly arrived senior staff, at biweekly press briefings to
develop a common understanding of the press and public affairs environment in which the
embassy operates. There are five other issue cluster meetings throughout the week. One of these
is the weekly meeting of the law enforcement working group, which effectively coordinates
embassy elements working on issues the Government of Argentina considers sensitive.

        Agency heads and section chiefs report the Ambassador and DCM are always available
when needed. Senior staff also notes that the country team is one of the most collegial and
collaborative in which they have ever worked, and they attribute this to the front office’s
leadership. Agency heads value the consistent support of the embassy front office (or clear
explanation of why something should not be done). They note the Ambassador is tough and
willing to stand her ground with the Government of Argentina or senior officials in Washington
when needed. In this regard, WHA credited the Ambassador for taking the initiative and
succeeding in convincing key members of Congress to change their position on an issue related
to Argentina that the Department believed was beyond the point of being susceptible to change.

      The embassy could do a better job of linking its daily work to the ICS. For example, the
embassy does not have a process to assess periodically and report to the Ambassador and
Washington on the progress in meeting ICS objectives. Additionally, the embassy has not

                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

established a process to link the embassy’s operational budgets, principally the travel and
representation budgets, to ICS priorities. Travel and representation budgets over the last 2 years
were based on past allocations with some adjustments based on tactical developments.

   Informal Recommendation 1:          Embassy Buenos Aires should establish a semiannual
      review to assess and report to the Ambassador and the Bureau of Western Hemisphere
      Affairs progress toward meeting Integrated Country Strategy objectives.

   Informal Recommendation 2:          Embassy Buenos Aires should institute a process for
      apportioning mission travel and representational funds to sections based on section travel
      and representational plans tied to the embassy’s strategic priorities.

        The embassy’s schedule of meetings and collegial interaction among the country team
produce excellent day-to-day coordination, but there is no formal process to plan and coordinate
reporting among the embassy’s reporting sections and agencies. The OIG team observed
reporting coordination during some of the embassy’s issue cluster meetings, but the reporting
itself was based on developments, not a reporting plan or the ICS. Inspectors counseled the
Ambassador and DCM to consider periodically using the political and economic cluster meetings
to plan, coordinate, and assess longer-term analytic reporting.

National Security Decision Directive 38

        The embassy has done an excellent job of managing the National Security Decision
Directive 38 process. Over the last 2 years, the embassy has reduced staff levels by a net of 14
positions (19 positions cut and 5 added). The Ambassador took the initiative in seeking
Washington approval for 15 position cuts: 3 were U.S. direct hires in the Drug Enforcement
Administration office; 1 position was a U.S. contractor for the Department of the Army; and 11
were LE staff members in an Agricultural Research Service laboratory. These cuts were made
consistent with mission priorities and the local operating environment, but on one occasion faced
resistance initially from Washington. A meeting between the Ambassador and senior officials of
the involved agency produced agreement on the proposed cuts.

       The embassy received and approved requests for 5 new positions over the last 2 years.
Requests for new positions at the embassy are appropriately reviewed by the relevant,
substantive sections or agencies, the management section, and the regional security office to
determine the additional costs to the embassy of each new position.

Mentoring and Professional Development of First- and Second-Tour Officers

        The embassy has 19 FAST officer positions, including 16 generalists and 3 specialists.
Many of these officers arrived during the summer 2012 transfer season. Inspectors reviewed
documents describing FAST-related activities in 2010 to early 2012 that indicated a number of
useful activities had taken place, including meeting with Washington visitors, informal lunch
discussions, and providing representational funding so FAST officers could host young foreign
diplomats. Nonetheless, the FAST mentoring and professional development program has lost
past momentum, is unstructured, and could benefit from greater oversight by the DCM. FAST
officers meet monthly as a group and seek to address issues of interest to members, but lack
                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

direction or a framework in which to address issues of substantive or professional career
concern. The DCM appropriately reviews all untenured FAST officers and he and other embassy
officers occasionally meet with FAST officers to discuss issues of interest to the group, but no
senior or mid-level officer at the embassy has been assigned to oversee a structured professional
development program for FAST officers or serve as a mentor to the group.

        The Secretary, Director General, and other senior Department officials have made clear
they look to Ambassadors and DCMs to play an active role in contributing to the professional
development of FAST personnel. This message is particularly important for officers who work in
the consular section and are often cutoff from information on wider embassy activities. The OIG
team provided examples of FAST programs at large and small embassies from which the
embassy could draw. During the inspection, the DCM informed new Department section chiefs
and reminded the others of a practice he began the year before of connecting FAST officers with
more senior officers in their cones. He reiterated that the work requirements of a Department
section chief must include mentoring FAST officers in the section chief’s cone. The DCM also
provided the FAST officers with a link to a Web site that the Bureau of Human Resources is
developing into a global FAST portal. Each of these steps was useful.

Recommendation 1: Embassy Buenos Aires should implement a structured first- and second-
tour officer professional development and mentoring program for the Ambassador’s approval
that assigns a senior officer to serve as a mentor and advisor to the group and includes scheduled
presentations to the group by embassy section chiefs and others on substantive and career
development issues. (Action: Embassy Buenos Aires)

        The embassy front office asks FAST officers to volunteer for three ancillary duties:
control officer for the Ambassador’s in-country official trips or occasionally for visiting
Washington officials; writing speeches for the Ambassador; and working at large
representational events. FAST officers’ willingness to volunteer as the Ambassador’s control
officer has diminished because of reports the Ambassador has occasionally reacted harshly when
mistakes are made and has not provided sufficient feedback when things go well. These duties
are important for professional development if the FAST officers are properly prepared for them.
The front office has developed templates and briefing materials for control officer duties and has
revised its approach to speech writing by bringing the Ambassador and the speech drafter
together earlier in the process. There was reception duty and control officer training in the past,
but the new group of FAST officers has not received it. When FAST officers make mistakes
during their performance of ancillary duties, it is important for senior officers to use those
mistakes constructively for the FAST officers’ professional development. Inspectors counseled
the Ambassador to bring mistakes to a FAST officer’s attention and also alert the supervisor and
DCM so that additional training or other appropriate action can be taken.

   Informal Recommendation 3:           Embassy Buenos Aires should establish a first- and
      second-tour officer duty roster for ancillary duties so that all first- and second-tour
      officers participate in such activities and schedule biannual training for first- and second-
      tour officers to prepare them for the duties they are asked to undertake.




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Public Outreach

        Public diplomacy is central to the embassy’s ICS. The Ambassador and DCM support
public outreach by embassy officers, but tend to be cautious themselves in dealing with the press
to avoid being drawn into Argentina’s contentious domestic politics. They have given very few
interviews in the last year despite their strong language skills. The Ambassador speaks to groups,
participates actively in other public occasions, and her involvement in events outside the
embassy is well covered in the social pages of Buenos Aires’ publications. The Ambassador and
DCM have given press interviews to regional press outlets when traveling outside Buenos Aires.
The Ambassador gave print and electronic media interviews at a large election night event at the
chief of mission residence during the inspection. Inspectors encouraged the Ambassador and
DCM to be more active with the Argentine press, particularly on noncontroversial issues that are
ICS priorities.

        The Ambassador makes good use of the chief of mission residence, which has been
designated by the City of Buenos Aires as a national historic building. She has an active
representational calendar; for example, during the inspection she hosted an in-house reception
for new country team members, an election night reception for some 500 guests, and a smaller
reception for a visiting congressional and business group. She makes the chief of mission
residence available for events hosted by sections and other agencies, which country team
members say is very helpful. In addition, the Ambassador hosts community events, including
events that involve the children of embassy staff.

Morale and Security

        Morale among American employees of the embassy is generally good, although it is
affected by increasing crime in residential areas and the high cost of living. (b) (5)



        The Ambassador and DCM support the embassy’s security program and participate in the
embassy’s emergency action committee meetings, including a recent emergency action
committee exercise to evacuate the embassy’s safe haven. The emergency action committee met
during the inspection to review security plans for a large election night reception at the chief of
mission residence and for planned demonstrations against the Argentine Government in several
parts of Buenos Aires later the same week. During those meetings and others the OIG inspection
team observed, the front office demonstrated its confidence in the regional security office—a
sense of confidence that has propagated to the entire embassy staff.




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
       The embassy’s three reporting sections, political, economic, and environment, science,
technology, and health, effectively advocate for mission interests and regularly provide
Washington with quality reporting and analysis on relevant issues. The three section chiefs meet
formally at least three times a week in addition to frequent informal communication. Working in
Buenos Aires can be challenging due to bilateral frictions.

        Only 6 percent of Argentine adults speak English. All generalist officers in the three
sections are in language-designated positions (at the Spanish 3/3 level) and all incumbents
confirmed Spanish is essential for successful performance of their duties, especially in public
outreach. Two office management specialists serve in positions designated at the 2/2 level. No
section employees had to obtain a language waiver.

        Interaction among officers and LE staff in the reporting sections is collegial. LE staff
report that they could be even more effective if they were better informed by their supervisors
about embassy activities. For example, Argentine contacts have called LE staff about invitations
to embassy events that American supervisors had not told LE staff about. LE staff job
satisfaction is high, (b) (5)


Political Reporting and Analysis

        Political reporting is strong and contains analysis of the complexities of Argentine
politics. Political section employees are satisfied with section and front office leadership.
Washington readers commended the section for excellent writing and good contacts, particularly
at the provincial level. Although the section does not have a reporting plan, it has a general guide
linked to ICS goals. Work requirements are tied to relevant ICS goals.




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Trafficking in Persons Awareness Training for Teamsters

Innovative Practice: Trafficking in Persons Awareness Training for Teamsters

Issue: To combat trafficking in persons through expanded civic cooperation with Argentine law
enforcement and victim assistance organizations.

Response: The political section labor officer and an LE staff member used contacts to foster
partnerships between two antitrafficking nongovernmental organizations and the Argentine
Federation of Trucking Companies. Knowing that the federation conducts mandatory annual
training required for teamsters to retain their licenses, the embassy and nongovernmental
organizations jointly asked the federation to add an antitrafficking component to the training.
The embassy contributed to training content at no direct cost to the U.S. Government. Volunteers
from the two nongovernmental organizations created a YouTube video entitled Roads of
Trafficking, posters, and wallet cards detailing how to recognize trafficked victims and how to
call for help. The posters and wallet cards carry the logos of the U.S. embassy, the Federation of
Trucking Companies, and the two nongovernmental organizations. With approval from the
Argentine Government, the Federation of Trucking Companies antitrafficking training reaches
20,000 teamsters a month in over 200 classrooms all over Argentina.

Result: Together with nongovernmental organizations and the Federation, the Ambassador
launched the program in September 2012. The event attracted wide press coverage and
attendance by over 150 representatives from national and foreign governments, union
representatives, legislators, and nongovernmental organizations. Following the launch, a
representative of the taxi industry contacted the embassy to express interest in a similar program
for taxi drivers. The Argentine video, posted on the embassy Facebook site, was viewed nearly
9,000 times in just 5 days.

        The political section reports breaking developments promptly by email reporting and
often follows up emails with front channel reporting. Record emails are not used and officers are
unfamiliar with when and how to use the system. As a result, some email information is lost and
not preserved for the historical record.

        Polling consistently shows a sizeable number of Argentines have negative views about
the United States. The political section, with the support of the public affairs section, actively
engages in public outreach in support of the embassy’s strategic goal of highlighting shared
interests and values. Between February and November 2012, the section made presentations at
38 events on such topics as the U.S. elections, U.S. foreign policy, and trafficking in persons.
Speakers included officers, LE staff, and the office management specialist.

        Travel funding is adequate. Although the section does not receive an annual allocation of
travel funds and cannot plan travel, officers take at least two trips a year around Argentina to
report on the political and social situation in the provinces.




                                         9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Economic Reporting and Analysis

        The economic section works on some of the most difficult issues in U.S.-Argentina
relations, such as Paris Club debt obligations, World Trade Organization disputes, and
intellectual property rights infractions. The section serves effectively as the link between the
Government of Argentina and other U.S. agencies. Between February and November 2012, all
economic section direct-hire employees addressed Argentine audiences, including university
students, youth, journalists, and visiting delegations from the United States.

       The section produces clear and relevant reporting on trade dispute developments and
economic cooperation in agricultural biotechnology. The Office of the United States Trade
Representative has commended the section for its reporting.

       The section meets regularly with the American Chamber of Commerce and has been
proactive in advocacy on behalf of American companies. For example, the section approached
the Government of Argentina on repatriation of airline revenues and assisted an American
company to gain access to the maritime market.

Environment, Science, Technology, and Health Reporting and Analysis

        Argentina has a strong environment, science, technology, and health sector and is open to
cooperation with U.S. counterparts in areas such as space, peaceful uses of nuclear energy,
biofuel, climate change, and medical research. As a result, environment, science, technology, and
health issues are given prominence in the ICS and serve as a platform for bilateral cooperation.

       The four environment, science, technology, and health direct-hire employees include a
mid-level officer on a 1-year detail from the economic section who covers the renewable energy
and environment portfolios. The detail position corresponds to embassy strategic priorities. The
FY 2014 Mission Resource Request asks that the detail position be made permanent and the OIG
team concurs.

Recommendation 2: Embassy Buenos Aires, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of Human Resources, should reprogram permanently the
mid-level environment, science, technology, and health position currently detailed from the
economic section. (Action: Embassy Buenos Aires, in coordination with WHA and DGHR)

        In some areas, economic and environment, science, technology, and health issues
overlap, but officers work effectively to share information and work collaboratively, thereby
avoiding friction and ensuring productivity. Both sections participate in the weekly economic
cluster meetings that are chaired by the Ambassador and include the DCM, public affairs,
political, Foreign Commercial Service, and Foreign Agricultural Service section heads.

Law Enforcement Working Group

        The weekly law enforcement working group, chaired by the Ambassador, is well
coordinated and effective. It is the primary venue for sharing information and coordinating
security policy and law enforcement. At the start of the inspection, it was coordinated by the
                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

deputy political counselor and attended by the appropriate Department and law enforcement
agency representatives. Participants contribute significant and timely information in the
meetings, which include a call for Visas Viper submissions. The embassy does not keep a record
of the sessions. The OIG team counseled the coordinator to keep meeting minutes for future
reference and for the benefit of participants who are unable to attend.

        During the inspection, embassy leadership decided to revert to an earlier practice of
creating a smaller monthly law enforcement working group coordinated by the regional security
officer to focus exclusively on law enforcement operational issues. The new operational group
became the law enforcement working group and the larger weekly meeting was renamed the
security policy coordination group.

        Law enforcement officers at the embassy report good working relations with reporting
officers. For example, the Department of Homeland Security and the political and economic
sections rely on each other for information on money laundering and intellectual property rights
enforcement. The embassy does not have a working group on counterterrorism or countering
violent extremism.

Foreign Assistance

        The United States reduced its foreign assistance to Argentina after it seized U.S. military
equipment in a joint-combined education and training event in February 2011. One casualty of
the resulting strain in relations is the International Narcotics Control and Law Enforcement
program, which was halted in 2011.

        Some bilateral cooperative and training programs continue. In 2012, the Export Control
and Related Border Security program, which is led and funded by the Department of State, in
cooperation with the Department of Homeland Security, provided $300,000 to train over 100
Argentine customs agents, prosecutors, and judges on nonproliferation issues including
detection, interdiction, and prosecution of weapons of mass destruction violators.

        In 2012, the political section monitored and reported on the closeout of two grants to
nongovernmental organizations: a $50,000 grant to fund work against gender violence and a
$35,000 grant to train security forces on religious sensitivities and the heightened risks of
terrorist attacks against religious minorities.

Public Affairs

        The public affairs section effectively manages a broad-ranging, $2.4 million public
diplomacy program under creative leadership, but it could be more efficient. The program
concentrates on the ICS goal of focusing on shared interests and values to explain U.S. policies.
Its principal programs involve English teaching and academic and youth exchanges. The target
audiences are provincial populations, U.S. exchange program alumni, and youth. The
predominant tool to reach audiences, especially young people, is social media. Because
Argentine youth get their information and cues from social media, the public affairs section
created a full-time social media position. Use of social media has also reduced costs for
publicizing youth exchanges in newspapers.
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         Many of the section’s programs cut across traditional information and culture boundaries;
for example, arts programs are promoted and then reported in social media. The public affairs
officer ensures internal section coordination by facilitating discussion among her staff that leads
to agreement on shared responsibilities. The section lacks a single work plan and calendar. As a
result, the public affairs officer has an uncertain sense of relative workloads, potential synergies
among the units are lost, and separate subsection calendars generate extra work for busy LE
staff.

        Informal Recommendation 4:         Embassy Buenos Aires should maintain one shared
           public affairs calendar.

        In FY 2012 the public affairs officer piloted a program called @IDEAS, which set aside
$81,000 for grants up to $10,000 on ICS priorities, each with a social media component. The
grants were restricted to targeted audiences in four underserved provinces. Nine grants were
selected by an embassy committee from a total of 50 proposals. This initiative deserves
recognition for competing grants tied to the ICS, for engaging embassy colleagues in the process,
and for restricting the competition to new audiences.

Grants Management

        The number of grants (206 in FY 2011) was overwhelming the staff, so the public affairs
officer consolidated grants in FY 2012 and lowered the number to 134. As a result, the section’s
six grants officer’s representatives were able to handle effectively the $1.1 million in FY 2012
grants.

        For 2 years the budget and grants manager has written monthly grants for Facebook
contest prizes, which takes up considerable staff time. Grants administration rules, however,
permit embassies to write one grant for a common purpose to cover purchase of all the prizes in a
fiscal year.

        Informal Recommendation 5: Embassy Buenos Aires should order its Facebook
           contest prizes in one grant per fiscal year and write no-cost amendments specifying
           the recipients and dates.

        In an innovative pilot program launched at the beginning of FY 2013, the public affairs
section, working with the information management office, developed a database application that,
after grant information is uploaded, reminds LE staff of deadlines and emails grantees regarding
instructions, period of performance, grants termination, and reporting deadlines.

Social Media

        The social media team is coordinated by the information officer, but responsibilities are
shared between the Information Resource Center and information unit. Argentina has the second
largest penetration in the world at 30 percent of online time. The social media team holds
biweekly meetings with representatives of the media, culture, and Information Resource Center
units. LE staff monitors target audiences carefully, with certain messages directed to journalists
and others to students and youth. The team monitors followers, tracks retweets, reviews the
                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

number of times readers print embassy tweets, and shares this information within the embassy.
The embassy’s “How to Get a Visa” YouTube video generated 51,152 views in 6 months.
Tweets about rock band Linkin Park’s "Music for Relief" reached 1,000,000 accounts in 1
month. The strategic vision of the social media team is impressive, but Facebook postings
completely eschew policy issues, in part because there is not adequate oversight by a single
officer.

        Informal Recommendation 6: Embassy Buenos Aires should require the information
           officer to oversee Facebook content.

        The section has boosted the number of social media readers, with 116,117 Facebook fans
and 8,300 Twitter followers, and they are growing by about 4,000-6,000 Facebook fans per
month and 1,000 Twitter followers every 3 months. One tool to build interest has been monthly
contests for Facebook followers in which participants research information on American culture
and society. The winning Apple iPad prizes cost about $8,000 for each of the past 2 years.
Awarding eReaders or holding quarterly contests would save much of this expense, while not
significantly cutting promotion of the site.

        Informal Recommendation 7: Embassy Buenos Aires should find less expensive
           alternatives to its contest prizes and pursue additional strategies to enlarge its social
           media audience.

Cultural and Education Programs

       The cultural unit has a broad palette of cultural and civil society programs, tied to the
ICS, including U.S. and embassy speakers, arts performances, workshops, and youth
ambassadors. It has a good alumni outreach strategy to engage its major exchange participants.
The English teaching program includes Access courses for underprivileged youth.

        The binational Fulbright Program exchange office is well managed by an experienced
executive director who runs a large exchange program with a relatively small staff. The
commission scored a coup when a recent Humphrey Fellow secured an International
Development Bank loan to fund 50 science and technology students per year in the United
States.

Binational Centers

        The public affairs section coordinates closely with 14 binational centers around the
country, each with an independent board and management team. It has provided annual grants
for renovations and computers as well as for programs. The centers are important platforms for
U.S. and embassy speakers on ICS priorities. The center in Buenos Aires is well funded by
service fees so that embassy grants comprise only about 5 percent of its budget. Like other
centers, it hosts English courses for underprivileged youth as well as English courses targeted to
journalists and offered on a competitive basis.

       The Cordoba center is an important partner as the city is the second largest in Argentina.
The center’s management is responsive and open, but its long-term debt makes its assets
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

vulnerable to creditor seizure in a civil suit. In FY 2012, the center received embassy grants of
$4,000 for an education advisor salary and about $10,000 for new computers and air
conditioners. The center has made proper reports, but the capital goods provided by grants could
be exposed to legal seizure.

          Informal Recommendation 8: Embassy Buenos Aires should limit program grants to
             the Cordoba center until the center can ensure that goods purchased with capital
             grants are not vulnerable to seizure by creditors.

Press and Information Programs/Information Resource Center

        The information unit is building relationships with journalists, although the embassy has
a low media profile. The unit has the lead in the embassy’s new social media working group and
has initiated a biweekly Web chat with embassy officials. The information officer recently issued
media guidelines on handling press inquiries, about which embassy employees were previously
unaware. The Information Resource Center is well managed by a regional information resource
officer, who has regional responsibilities and works half-time on Argentina. The center’s director
reports to the public affairs officer. Embassy officers appreciate the center’s electronic editorial
and article distribution, as well the reference and research services.

Consular Affairs

        The consular section has sustained sharp increases in nonimmigrant visa workload over
the past several years and occupies outdated, overcrowded, and unhealthy work space; however,
work flows efficiently, and the staff is productive and innovative. The embassy is among the top
10 visa processing posts worldwide, and Argentina is the largest country geographically served
by a single visa processing post. As a result, visa processing attracts most of the consular
management’s attention and the section’s resources. The nonimmigrant visa workload increased
from 103,727 adjudications at the time of the last inspection in FY 2006 to 274,842 in FY 2012.
The embassy had lengthy wait times for nonimmigrant visa appointments until February 2012,
reaching 152 days at one point. In order to reduce this unacceptable backlog, the Bureau of
Consular Affairs provided temporary duty support and established several new officer and LE
staff positions. The section found creative ways to streamline its processes and increase staff
productivity. At the time of the inspection, Buenos Aires had no delays for visa appointments. In
addition, the embassy’s transition to a Global Support Strategy contract for nonimmigrant visa
intake processing 1 at the end of October 2011 allows the processing of increased numbers of visa
applicants in the existing facility.

        The section administers the Visas Viper and referral program in accordance with
regulations and it provides good oversight and accountability for controlled items and consular
fees. The OIG team encouraged the accountable consular officer to complete fee accountability
documentation on a daily basis. Because of the country’s size and lack of constituent posts,
Embassy Buenos Aires would be an ideal pilot post for any new technologies for remote
processing, secure collection of credit card fees, or virtual interviews.

1
 Visa applicants visit a nearby contractor-run facility from 1 to 7 days before their visa interviews for fingerprint
collection, photo uploading, and initial electronic application quality review.
                                             14
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Consular Space

        The 2006 OIG inspection report 2 stated that the consular section would not be able to
accommodate sustained workload growth until the anticipated construction of a new embassy
building in 2014. In fact, the report estimated that the section would have adequate room for only
three or four additional staff before crowding became untenable. Buenos Aires is no longer
scheduled for new embassy construction in the near- or mid-term, but the consular staff has
increased from 39 employees in 2006 to 56 in 2012, with 2 more U.S. direct hires expected in
early 2013. The only way the two new officers will have work space in the consular section is if
someone leaves the current space. The three-person Federal benefits unit, which is funded by the
Social Security Administration, has regional and local responsibilities, and reports to a
supervisor in Costa Rica, is the obvious candidate for relocation. There is available space on the
floor below the consular section that the Federal benefits unit could occupy almost immediately,
and there is also ideal space on the same floor as the consular section that another, less densely
staffed section currently occupies. Whichever option the embassy chooses, the space freed up by
the move of the Federal benefits section would provide immediate relief for some of the consular
section’s space demands. Federal benefits would continue to provide services by appointment at
one of the consular section interview windows each morning.

Recommendation 3: Embassy Buenos Aires should designate alternate space for the Federal
benefits unit that is appropriate in size and configuration and as close to the consular section as
possible, coordinate an appropriate office design with the Social Security Administration
regional representative at Embassy San José, and relocate the Federal benefits unit. (Action:
Embassy Buenos Aires)

        The overcrowding of the section’s back office space is compounded by reverse airflow
from the waiting room, temperature disparities that mean some staff members wear coats and
gloves while others swelter, and a lack of ventilation that results in widespread complaints of
dizziness, headaches, sore throats, and somnolence. A space planning and architectural team
visited the consular section in August 2012 and noted the air quality problems. OBO identified
several remedial embassywide heating, ventilation, and air conditioning projects in 2010, but
there are no plans to fund these projects, which have become a matter of health and safety. The
Facility Management section of this report makes a recommendation on this issue.

        Although the Bureau of Consular Affairs renovated the section desks and cubicles,
replaced the carpeting in the work area and waiting room, and refreshed the computers in FY
2012, the section’s storage cabinets are old fashioned, unnecessary because of electronic data
storage capabilities, and take up valuable space that could be used for printers and copiers that
dot the narrow aisles between the ranks of cubicles. Several file drawers are broken, others are
filled with an assortment of outdated supplies and printed materials, and some massive floor-to-
ceiling units are empty. The OIG team suggested ways for consular management to review and
reduce the contents of consular storage, including the dedication of one of the monthly
administrative days to eliminate clutter.



2
    OIG Report No. ISP-I-06-49A, Inspection of Embassy Buenos Aires, Argentina – September 2006
                                            15
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Staffing

        The 2006 OIG report recommended that the fraud prevention unit report directly to the
chief of the consular section if, and when, headed by a full-time fraud prevention manager.
Buenos Aires has traditionally been considered a low-fraud post, and an entry-level officer
rotates into the part-time fraud prevention manager position every few months. That officer and
the two local fraud prevention investigators have long reported to the visa chief because visas
dominate the fraud activity.

        The embassy is expecting a new assistant regional security officer-investigator in spring
2013. According to the memorandum of understanding between the Bureau of Consular Affairs
and the Bureau of Diplomatic Security, the regional security officer and the chief of the consular
section share supervisory responsibility for the assistant regional security officer-investigator.
Given the section’s staffing configuration, the chief of the consular section is the logical person
to supervise the fraud prevention manager and the assistant regional security officer-investigator,
in part because the fraud prevention unit’s mandate transcends visas, but also because the unit is
located immediately outside his office.

Recommendation 4: Embassy Buenos Aires should assign supervision of the fraud prevention
unit and the assistant regional security officer-investigator to the chief of the consular section.
(Action: Embassy Buenos Aires)

        Consular managers are not reviewing and updating position descriptions yearly as
required by 3 FAH-2 H-441.4. As a result, there are several longstanding grade level anomalies
among LE staff. The most noticeable inequities involve the small but busy American citizens
services unit. Three of the unit’s LE staff members handle passport and citizenship issues.
Although each staff member has an area of specialty, they are completely cross-trained. Two are
FSN-07s and one is a nonsupervisory FSN-08, who also works part time based on her personal
preference. Even if management created a supervisory position in the passport and citizenship
subunit, it is unlikely a supervisor would be a part-time employee. Having a staff member from
the passport team unavailable in the afternoons affects scheduling, backup cashier options, and
leave decisions. Although the staff respects the knowledge and experience of the passport FSN-
08 incumbent, her job does not appear to require more skills or give her more authority than her
colleagues at the FSN-07 level. Management has not identified the combination of skills and
availability they need in the busy unit.

Recommendation 5: Embassy Buenos Aires should review and update the position descriptions
of the locally employed staff in the American citizens services unit and reclassify the positions if
appropriate. (Action: Embassy Buenos Aires)

Efficiencies

        The consular section makes several outreach trips each year to maintain contacts with
local officials and emergency service providers in areas where Americans vacation or reside, to
advise potential visa applicants about regulations and procedures, and to provide consular
services for Americans who may not travel to the capital regularly. In this vast country,
Americans renew their passports by mail when possible or wait for consular outreach trips to
                                        16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

submit applications for consular reports of birth and passports for newborns. Unfortunately,
paying for such services is challenging because applicants cannot purchase U.S. dollar
instruments and the currency conversion rate fluctuates. On outreach trips, consular officers are
not allowed to accept cash payments or credit card information because of the risk of loss or
compromise.

        The prevalent practice in Argentina is for persons submitting mail or outreach
applications to ask someone living in Buenos Aires to go to the embassy and pay a fee that the
staff then associates with a previously received application. Not only does this practice mean that
the embassy is holding dozens of requests for service until the applicants can locate someone to
hand deliver the fee, but it also means that members of the public who have no business with the
consular section have to be cleared through security and enter the congested waiting area to pay a
fee for someone else. During the inspection, consular management volunteered to pilot a
program for secure credit card payments, and, if selected, both the consular section and consular
customers across the country could soon benefit from a more rational payment option.

        Before the embassy’s transition to the Global Support Strategy contract, which includes
passport delivery for visa services, DHL, an international mail carrier, had a booth inside the
embassy compound where all visa and passport applicants paid for courier pass back. The Global
Support Strategy contract, however, only includes passport delivery for visa cases. As a result,
the consular section had to change its procedure for returning U.S. passports. The American
citizens services unit gives passport applicants the option to collect their new passports directly
from the consular section or to pay for DHL pass back. About half of the applicants choose
DHL, but others opt for personal pickup. Although the unit notifies applicants promptly that their
passports are ready, many passports remain in the unit for weeks or months awaiting collection.
Even if applicants collect their passports promptly, this option results in additional congestion in
the waiting room and a second unnecessary visit to the embassy.

        Informal Recommendation 9: Embassy Buenos Aires should require all passport
           applicants to use courier pass back for U.S. passports, except in cases of emergency.

        In FY 2011, 20 percent of all immigrant visa applications were denied at the initial
interview on documentary grounds. The immigrant visa staff improved relevant portions of the
embassy Web site, and in FY 2012, the refusal rate fell to 11 percent, with more applicants
arriving better prepared for their interviews. The unit could do more to reduce the refusal rate if
the two-person staff had time to review new cases as soon as they arrive from the National Visa
Center and contact applicants who are lacking documents before their appointment dates. The
immigrant visa staff is also in the midst of a major project to purge hundreds of old cases that
had filled an entire wall of file cabinets. Until they complete that project and can devote their full
attention to new cases, management has identified a nonimmigrant visa clerk to help review
incoming immigrant visa cases to minimize documentary refusals. This two-pronged effort
should reduce file holdings, oversized file cabinets, and the incidence of documentary refusals.

        The current nonimmigrant visa refusal rate is under 3 percent, the lowest in 9 years. The
last time the fraud prevention unit conducted a validation study of B visa holders—travelers for
business or pleasure that comprise the majority of Argentine visa applicants—was in FY 2010
and polled travelers from FY 2008. In FY 2012, staff identified a visa scam involving several
                                        17
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Fujian Chinese residents in Argentina that resulted in visa revocations and netted the local
ringleader. Statistics show that when officers refer cases to the fraud prevention unit, the staff
does find instances of fraud, which suggests that with more fraud referrals there might be more
fraud detected. Regular validation studies are the best way to confirm that the low refusal rate is
warranted and that streamlined interviewing and processing procedures are working.

        Informal Recommendation 10:           Embassy Buenos Aires should conduct a validation
           study of B visa travelers as soon as possible and establish a regular schedule of B
           visa validation studies thereafter.

       The section does not maintain an inventory of backup equipment provided by the Bureau
of Consular Affairs and has no idea if it has the recommended number of backup printers,
cameras, or fingerprint capture devices. During the inspection, leadership identified one officer
and one LE staff member to monitor the equipment inventory, ensure that broken equipment is
disposed of appropriately, alert the Department when they receive faulty equipment, and
maintain backup equipment. This initiative should reduce the ad hoc process for replacing
broken equipment and keep the busy section running more smoothly.

        The surge in nonimmigrant visa workload and the resultant streamlining of operations has
had the unintended consequence of reducing the free flow of information between officers and
LE staff members. For months, there was no time for consultation or discussion. Energy was
focused entirely on processing record numbers of applicants and reducing the appointment
backlog. Officer and LE staff worked toward the same goal but sacrificed the synergy of a
teamwork approach to problem solving. Some LE staff bemoaned the fact that they learned how
to perform discrete tasks when they were hired but never got broader contextual training, again
due to the press of business. Now that the workload has stabilized and newly hired staff members
are comfortable with their portfolios, section officers are making increased efforts to enhance
communication with LE staff. Initiatives include a community committee and team-building
exercises. The OIG team suggested additional options that would build team spirit, but also
double as professional development opportunities, including training activities, crisis
management exercises, language buddy pairings, and LE staff participation in new officer
orientation.

Security

        The regional security office is effective and respected. Morale among U.S. direct hires is
very good and LE staff members in the section express satisfaction with their jobs. Security
programs that the office directly controls are in good working order, with a few exceptions. (See
the classified annex to this report that discusses embassy security.)




                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Innovative Practice: Automated Mail Logging System

Innovative Practice: Automated Mail Logging System

Issue: The Embassy Buenos Aires local guard force receives and screens, on a daily basis, a
large volume of mail at the main pedestrian access control area. The embassy received 93
packages, for example, on November 1, 2012, from various carriers including DHL, Federal
Express, and the local Argentine postal service. The majority of these deliveries were destined
for the consular section via the Diplomatic Post Office located in the chancery. Manual logging
of each piece of mail by security guards is both time-consuming and prone to human error.

Response: Concerned about the amount of time security guards spend with this administrative
duty, the regional security office, working in tandem with a local staff member in the
information management section, produced a simple and replicable computer application. The
system allows local guards to electronically scan nearly all incoming mail with a $200
commercially available barcode reader—a model compatible with the reader used by the
embassy Diplomatic Post Office. Embassy mail handlers sign for each day’s mail on reports
produced through the new computer application.

Result: This innovative practice saves time, enhances security, and improves the integrity and
timeliness of mail processing.




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Resource Management
            Agency                 Direct-    Local-    Foreign    Total       Total Funding
                                  Hire Staff Hire Staff National   Staff         FY 2012
                                                         Staff
Department of State
Program                                  57          8        18       83         $4,812,794
ICASS                                     5         13        83      101         $7,928,200
Public Diplomacy                          5          3        15       23         $2,466,503
Diplomatic Security                       4                    2        6         $1,825,523
Marine Security/Bureau of                 6          1         3       10           $288,045
Diplomatic Security Program
Bureau of Consular Affairs                                    14       14           $321,905
OBO                                                            1        1         $2,805,025
Machine Readable Visas                              12        14       26           $794,890
Representation                            0          0         0        0            $46,085
Other State Funding                                  2
Department of Agriculture
Foreign Agriculture Service               2                    5           7        $504,551
Animal and Plant Health                   1                    5           6        $341,750
Inspection Service
Department of Defense
Defense Attaché Office                   15                    3       18           $629,340
U.S. Military Group                      15                    6       21           $600,000
Other/USAITC                              1                    1        2         In above #
Department of Commerce
Foreign Commercial Service                2          0        12       14         $1,091,351
Department of Justice
Drug Enforcement Administration           8          1         1       10           $225,829
Legal Attaché Office                      2                                2        $420,400
Department of Homeland
Security
Customs and Border Protection             2                                2        $255,962
Immigration and Customs                   4                    5           9        $741,110
Enforcement
Transportation Security                   1          1         0           2        $241,421
Administration
Totals                                  130         41       188      357        $26,340,684




                                     20
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Management Operations

        The management section faces external and internal challenges that have affected its
performance, but steps are being taken to improve customer service in 2013. LE staff job
satisfaction is high, (b) (5)
                                                          As a result, productivity has suffered in
some units.  (b) (5)
                                                                                  The management
section succeeded in obtaining approval for an exception in each of the last 2 years to the wage
freeze. Obtaining the justification increased the section’s already heavy workload. The effect of
the exceptions, however, was short-lived because inflation increased an average of 1.5 to 2
percent per month in 2011 and 2012. Ten LE staff management positions were frozen because of
a lack of funding. The management section was also burdened with poor performers and
terminated 21 LE staff members over a 2-year period. In 2011, the Department denied the
embassy’s request for an assistant general services officer position. Argentine import restrictions
have made it difficult for the embassy to procure goods and bring in employee vehicles and
household effects.

        Respondents to OIG survey questionnaires scored financial management, information
resources management, and most quality of life categories above the overall average scores of
prior inspected posts. Overall management, general services, procurement, customs and
shipping, personal property management, motor pool, housing, and facility management scored
below these averages. The 2012 International Cooperative Administrative Support Services
(ICASS) customer services survey results placed the majority of administrative services below
the WHA and worldwide scores. Later OIG surveys indicate that some low scoring
administrative services were improving. Some of the leadership in the management section is
new, and the OIG team counseled them on the importance of performance standards, metrics,
monitoring performance, holding staff accountable, and the need for followup.

       During the inspection, a representative of the Office of Overseas Employment visited
Buenos Aires to review LE staff salary concerns. The representative’s 1-week visit was
productive and well received by the American and LE staff.

Human Resources

       Overall, the unit is adequately staffed, well trained, and provides good service. Other than
LE staff services, the unit received good scores on ICASS and work and quality of life
questionnaire surveys. In OIG questionnaires and interviews, embassy LE staff complained
unanimously about salary increases and the Department’s methodology used to calculate salary
increases. The LE staff’s preference is to have salary increases linked to economic factors rather
than based on labor costs, which is not the prevailing practice. Many employees at comparator
companies and organizations receive better pay and larger salary increases. To make ends meet,
some LE staff work second jobs and have incurred significant credit card debt. The salaries of
some mid-level LE staff members are lower than those of contractors who do less complex tasks
to support embassy operations.


                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Some LE staff believe the Ambassador has the authority to adjust salaries during hard
economic times. The source of this belief is the LE staff’s interpretation of an outdated clause
found in the Foreign Affairs Handbook (FAH). The clause was added to the FAH 22 years ago in
1991. The clause, 3 FAH-2 H-234, states that the Ambassador is delegated the authority to adjust
LE staff salaries in countries experiencing annual inflation of more than 100 percent or a
devaluation of the local currency against the U.S. dollar of more than 100 percent. The outdated
FAH language has created confusion and distrust between management and LE staff and has
contributed to (b) (5)              .

Recommendation 6: The Bureau of Human Resources, in coordination the Bureau of
Administration, should review and update the Foreign Affair Manual and Foreign Affairs
Handbook provisions related to economic conditions and local compensation plans. (Action:
DGHR, in coordination with A)

Salary Increases, Inflation, and Prevailing Practice

       Because of economic conditions and annual inflation of at least 25 percent, the
Department approved two exceptions to the U.S. Federal Government wage freeze. The embassy
received salary increases of 10.32 percent in 2011 and 12.08 percent in 2012. Based on
preliminary 2012 economic data, the Office of Overseas Employment is likely to approve a third
exception to the Federal salary freeze in early 2013. (b) (5)



        Despite LE staff assertions that local companies give employee salary increases based on
the inflation rate, the OIG team learned that most companies in Buenos Aires base their salary
increases on the cost of labor or the market. The companies buy salary compensation surveys
that are available commercially. It is rare for a company to collect salary survey data in house.
The outsourcing of compensation surveys is a prevailing practice in Argentina and is the method
used by the Department to calculate most of its salary increases worldwide. In contrast to
Department practice of one salary survey per year, prevailing practice in Buenos Aires for
companies is two salary surveys per year during periods of high inflation, as is now the case.

Recommendation 7: The Bureau of Human Resources should revise its current policy on
making salary adjustments and follow Argentine prevailing practice by conducting two salary
surveys per year during periods of high inflation. (Action: DGHR)

Life Insurance Contracts

        LE staff life insurance contracts need to be reviewed for compliance with local labor law
and prevailing practice. The mandatory life insurance contract was established in 2003 per local
labor law. The optional life insurance contract was established in 1994. Both contracts
automatically renew, but the embassy has no formal written contracts with the company
providing coverage. During a briefing with the life insurance company representative, the OIG
team learned that the maximum benefit paid to LE staff needed to be modified. As a guideline, a
review every 5 years would allow the embassy to determine whether the contracts for worker’s
compensation and supplemental retirement are meeting the needs of the LE staff.
                                       22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 8: Embassy Buenos Aires, in coordination with the Bureau of Human
Resources, should review its life insurance and supplemental retirement policies and contracts
every 5 years to ensure they comply with prevailing practice and local labor law requirements
and meet the needs of the locally employed staff. (Action: Embassy Buenos Aires, in
coordination with DGHR)

Locally Employed Staff Handbook

        The locally employed staff handbook is out of date. The last update was done in 2007 and
local labor laws have changed. Guidance in 3 Foreign Affairs Manual (FAM) 7224.2-1 requires
that handbooks be kept current and explain conditions of employment, ethical standards, and
disciplinary processes. Absent accurate policies and procedures, American and LE staff may
disseminate and work with incorrect information that could lead to wrong decisions and possible
lawsuits.

Recommendation 9: Embassy Buenos Aires, in coordination with the Bureau of Human
Resources, should update its locally employed staff handbook to reflect current conditions of
employment, ethical standards, and disciplinary processes, including terminations. (Action:
Embassy Buenos Aires, in coordination with DGHR)

Performance Evaluations

        Eleven within grade increases for LE staff in 2012 were delinquent because of late
performance evaluations. In accordance with 3 FAM 7584, before a within grade increase may
be authorized, the supervisor must certify in writing that the employee’s performance is fully
successful or better. Per 3 FAH-2 H-312 b.(6)(a), supervisors need to prepare objective and
timely performance reports. Late evaluations cost the employee compensation because within
grade increases are not retroactive. (b) (5)

Recommendation 10: Embassy Buenos Aires should include a work requirement for all
supervisors to complete performance evaluations on time and should rate the supervisors
accordingly. (Action: Embassy Buenos Aires)

Position Descriptions

         According to the OIG LE staff survey, approximately 17 percent of LE staff members
believe their position descriptions are inaccurate. Supervisors are required to check a box on
each position description indicating that it is accurate. According to 3 FAH-2 H-441, American
supervisors are responsible for ensuring that positions under their direction are accurately
described. According to 3 FAH-2 H-443, supervisors have responsibility for keeping position
descriptions up to date, and the personnel officer, or other designated official responsible for the
personnel function, is responsible for ensuring that the classifications of LE staff positions are
current. The personnel officer is responsible for requesting amendments to position descriptions
if there is reason to believe existing position descriptions are inaccurate and is also responsible
for administering an annual review of all positions in each organizational unit.


                                        23
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        Informal Recommendation 11:         Embassy Buenos Aires should issue an
           administrative notice to embassy staff outlining supervisory responsibility for
           ensuring that employee position descriptions are accurate in accordance with
           Department of State regulations.

Equal Employment Opportunity and Federal Women’s Program

         The EEO program is stagnant and needs to be reenergized. It has been more than 1 year
since the embassy held a townhall meeting on EEO policies and procedures or conducted EEO
training. The EEO counselor is trained. Although there have been no formal EEO complaints in
the last year, some employees have sought guidance from the EEO counselor on workplace
bullying by a supervisor. For EEO backup and continuity, the embassy selected a second EEO
counselor who is not trained. The Department requires EEO counselors to take 32 hours of EEO
training before they are appointed. The embassy selected a LE staff EEO liaison, but the
candidate has not accepted the appointment. Given the large LE staff community another EEO
liaison is needed. The embassy’s EEO SharePoint site is incomplete, with only a link to
Diplopedia and 3 FAM 1500, EEO policies and procedures are only in English, and the site
contains no EEO contact information. The embassy recently designated a Federal Women’s
Program coordinator. The OIG team stressed to the management section the importance of
complying with EEO policies and procedures.

Recommendation 11: Embassy Buenos Aires should train the second Equal Employment
Opportunity counselor. (Action: Embassy Buenos Aires)

Recommendation 12: Embassy Buenos Aires should recruit, appoint, and train locally
employed Equal Employment Opportunity liaisons using materials from the Office of Civil
Rights Web site. (Action: Embassy Buenos Aires)

Recommendation 13: Embassy Buenos Aires should create an Equal Employment Opportunity
and Federal Women’s Program section on its SharePoint site that includes policies and
procedures in English and Spanish and issue an administrative notice in English and Spanish to
its employees with the same information. (Action: Embassy Buenos Aires)

Recommendation 14: Embassy Buenos Aires should regularly publish a schedule for Equal
Employment Opportunity activities, including townhall meetings, diversity training, and
newcomer orientation. The Equal Employment Opportunity counselors and the human resources
officer should develop the schedule for deputy chief of mission approval. (Action: Embassy
Buenos Aires)

        Informal Recommendation 12:        Embassy Buenos Aires should issue an
           administrative notice on workplace bullying and provide remedial training to staff as
           needed.

Financial Management

      The financial management unit provides satisfactory accounting, budgeting, cashiering,
vouchering, and payroll services. The OIG team found no anomalies in a sample review of
                                      24
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

transactions in cashier operations, unliquidated obligations, the suspense deposit account, travel
vouchers or outstanding travel advances, official residence expenses, and proceeds from sale.
The OIG team discussed with the financial management officer ways to improve the financial
operation, including modifying vouchering standard operating procedures, outsourcing some of
its vendor voucher workload, and LE staff succession planning. The unit’s present staff of 1 U.S.
direct-hire financial management officer and 15 LE staff members is adequate. Unit morale is
good.

Vouchering

        The financial management unit has not included in its workforce planning a cost-benefit
analysis of outsourcing vendor and travel voucher processing to the Post Support Unit in the
Bureau of the Comptroller and Global Financial Services. The unit did not perform a cost-benefit
analysis before recently filling two voucher examiner positions. The unit faces possible position
openings due to retiring employees. Outsourcing to the Post Support Unit is one of the
Department’s Top 8 Global Management Priorities. This initiative’s goal is cost containment and
cost reduction through remote voucher processing. Under this initiative, embassies are required
to consider outsourcing their voucher processing.

        The OIG team’s analysis showed it would be far more efficient for the Post Support Unit
to process vouchers than for the embassy to hire new staff or replace LE staff. The embassy’s
cost to process a voucher is $31.19, whereas it costs the Post Support Unit only $12 to process a
voucher. The OIG team estimates that the embassy could save $28,861 annually if it outsourced
the workload of one voucher examiner to the Post Support Unit. The embassy could also avoid
high severance costs recently paid to LE staff.

        The OIG team discussed with the financial management officer the advantages of
outsourcing vouchers to the Post Support Unit to free up mission staff for other duties. Because
of voucher examiner staffing gaps and shortages, the financial management unit in a 12-month
period incurred 201 hours of overtime, 290 hours of double time, and 163 hours of compensatory
time. The unit is way behind on its processing of value-added tax refunds. The embassy sought
some relief by outsourcing a small number of electronic travel vouchers (only 260 vouchers) at
an annual cost of $3,120. These costs are excessive in light of the availability of the Post Support
Unit.

Recommendation 15: Embassy Buenos Aires should conduct a formal cost-benefit analysis of
outsourcing a portion of its voucher processing to the Bureau of the Comptroller and Global
Financial Services Post Support Unit and select the appropriate low cost option. (Action:
Embassy Buenos Aires)

        Embassy Buenos Aires has a light voucher workload of about 10,860 vouchers annually.
The embassy voucher examiners process about 1,519 vouchers per examiner. This is well below
the worldwide average of 2,033 vouchers per examiner and below other embassies in the region.
Yet, the embassy ICASS and work and quality of life scores for voucher processing were below
average.


                                       25
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        The embassy could achieve greater efficiency by modifying its standard operating
procedures on voucher processing. The OIG team queried Embassy Santo Domingo and
Embassy Santiago to ascertain why their staff efficiency is much higher. These embassies have
different voucher processing and monitoring procedures.

Recommendation 16: Embassy Buenos Aires should determine the most efficient procedures
for processing vouchers by studying the practice of other embassies or by conducting a site visit
and should revise its voucher processing procedures to reflect those findings. (Action: Embassy
Buenos Aires)

International Cooperative Administrative Support Services

        The ICASS council operates effectively. Each agency subscribing to ICASS sends one
representative to council meetings, which are held approximately quarterly and also on an ad hoc
basis, in compliance with 6 FAH-5 requirements. A consensus vote determines outcomes.
Subscribing agencies expressed satisfaction that the meetings were productive. There are no
pending issues.

General Services

       The general services office is challenged in managing poor performance, American staff
expectations, LE staff morale, and a difficult working relationship with the Argentine Ministry of
Foreign Affairs. In OIG questionnaires and interviews, embassy staff expressed dissatisfaction
with the housing, procurement, and customs and shipping units. The office terminated three LE
staff members due to poor performance in 2012.

        The general services officer is managing 33 LE staff members and an eligible family
member hired as the assistant general services officer as part of the Expanded Professional
Associates Program. The program fills positions temporarily with eligible family members for
the length of the sponsoring employee’s tour of duty if sufficient funding is available.

         WHA eliminated the U.S. direct-hire assistant general services officer position 6 years
ago. Since then, the office’s workload has increased and it is no longer adequately staffed. In its
FY 2014 Mission Resource Request, the embassy requested reestablishment of an entry-level
assistant general services officer position. The OIG team concurs and believes the position will
assist the unit with needed oversight.

Housing

        The 2012 ICASS customer satisfaction survey gave low scores to the housing unit.
Finding suitable short-term lease housing in a high inflation environment is difficult. The
increasingly expensive local housing market often requires the embassy to request approval from
OBO to increase the rental benchmark. As a result of the lengthy approval process, the embassy
has often lost properties it was seeking to obtain for incoming staff.

       The unit employs a LE staff member to locate and negotiate leases for employees. Some
staff members have expressed concerns about not utilizing a variety of real estate agencies to
                                        26
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

locate properties. The OIG team suggested creating a distribution list of local agents to use when
seeking needed properties.

       U.S. direct-hire supervisors spend an inordinate amount of time on managing housing.
Employing an eligible family member as a housing coordinator would improve oversight of the
housing program.

Recommendation 17: Embassy Buenos Aires should establish a housing coordinator position to
manage the housing program. (Action: Embassy Buenos Aires)

       The newly elected interagency housing board chairman is experienced and active in the
embassy’s housing program. After receiving complaints of inequitable housing assignments the
housing board is providing additional engagement into the selection of suitable housing. The
OIG team accompanied the housing board on three site visits of potential properties.

Property Management

        The property management unit provides good service despite understaffing. The LE staff
supervisor manages eight employees, including two staff members at the warehouse. The
implementation of the Integrated Logistics Management System has been beneficial to all areas
in the general services unit.

      The FY 2012 property management certification reported acceptable nonexpendable and
expendable inventory shortages below the Department’s 1 percent threshold. The property
management supervisor conducts periodic spot checks of the warehouse but not frequently
enough to exercise adequate oversight. The general services officer and the property
management supervisor acknowledged this deficiency and plan to establish closer supervision.

        Informal Recommendation 13:          Embassy Buenos Aires should conduct weekly
           unannounced visits to the off-site warehouse.

Warehouse

         The overcrowded warehouse is located off site in a congested traffic area. Warehouse
staff is unable to retrieve furniture and appliances with the forklift due to furniture blocking the
aisles. In accordance with State Cable 32159, dated June 2012, as of September 30, 2012, each
of the regional bureaus requires that all furnished ICASS posts within their region establish a
furniture and appliance pool.

        Embassy Buenos Aires recently established a furniture and appliance pool. Three
agencies have joined the pool and others plan to do so in the near future. Maintaining a furniture
and appliance pool requires additional space to store items. In 2009, OBO decided to reduce the
size of the warehouse from 1,845 to 1,015 square meters due to the increased cost of renewing
the lease. In an effort to make room available at the warehouse, the embassy uses the local
auction house to sell old and surplus items. In FY 2012, 578 items were sold, with proceeds from
sales of $28,412. The warehouse is inefficiently organized, too small, and does not have the
capacity to support a growing furniture and appliance pool.
                                        27
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Recommendation 18: The Bureau of Overseas Buildings Operations should fund a suitable
warehouse for Embassy Buenos Aires and provide the embassy with a relevant funding timeline.
(Action: OBO)

Procurement

        The procurement unit is knowledgeable and provides adequate customer service. They
coordinate well with the property management and financial management units. Contracts over
the $3,000.00 threshold are compliant with the mandatory Federal Acquisition Regulation clause
52.222-50 pertaining to trafficking in persons.

Customs and Shipping

         The customs and shipping unit is understaffed. The office recently hired a new LE staff
supervisor (b) (6)                                                        The local government has
strict import restrictions that make it very difficult to import and sell vehicles and goods. In May
2012, the Office of Foreign Missions sent a diplomatic note to the Argentine Embassy in
Washington drawing attention to an array of reciprocity inequities and requesting equitable
treatment of Embassy Buenos Aires. The Argentine Embassy had not responded as of December
2012.

Recommendation 19: The Office of Foreign Missions, in coordination with Embassy Buenos
Aires, should remedy reciprocity inequities between the Argentine Embassy and Embassy
Buenos Aires concerning the importation, exportation, sales, and transfer procedures related to
private and government-owned vehicles and household effects. (DS, in coordination with
Embassy Buenos Aires)

Motor Pool

        The OIG team conducted an on-site inspection of 10 percent of the 39 vehicles in the
motor pool inventory and found no discrepancies. The motor pool maintains vehicle records in a
well organized filing system. Drivers consistently use the Daily Vehicle Use Record (OF-108) to
record mileage, destination, vehicle checks, and refueling. Customer service is generally good,
but an irritant that almost all reporting officers mentioned was the difficulty of getting consistent
motor pool support to and from official meetings. Complaints were common about no-show
vehicles or the lack of transportation after meeting in dangerous parts of the city. Officers were
encouraged to work with management to find alternatives to the motor pool, including
reimbursement for taxis.

        Informal Recommendation 14:       Embassy Buenos Aires should review customer
           complaints and modify its motor pool vehicle policy to include alternatives to motor
           pool services, such as taxis.

        In the embassy, seven agencies each operate its own motor pool. According to 14 FAM
434.1, all missions or agencies having two or more vehicles available for general use must
operate such vehicles as a motor pool. The only exception is for vehicles designated or modified
                                        28
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

for security purposes. Both Federal law and Department regulations attach considerable
importance to the administration, control, and use of government-owned vehicles. During the
inspection, the embassy was reviewing the motor vehicle policies of all other agencies to ensure
compliance with regulations and with the embassy motor vehicle policy.

Facility Management

        The facility management unit is inefficient and ineffective. Over the last 3 years, the unit
terminated seven employees. The unit is understaffed and does not provide good customer
service. Three LE staff members perform maintenance on 17 government-owned and 88 leased
properties. In OIG questionnaires and interviews there were many complaints about housing
maintenance.

         The unit does not have clear guidelines on the maintenance and upkeep of properties or
the roles and responsibilities of the offices involved in the housing program, including the
general services office, facility management unit, and local landlords. The lack of clarity causes
inefficiencies and problems in coordination, communication, and customer service. For example,
it is unclear whether the facility management unit or landlords are responsible for minor
maintenance issues. The housing program guidelines also need clarification with regard to
occupant responsibilities.

Recommendation 20: Embassy Buenos Aires should update its housing policy and guidelines
and include the roles and responsibilities of the general services office, facility maintenance unit,
landlords for government-owned properties, and short-term leases in the revisions. (Action:
Embassy Buenos Aires)

         The unit outsources its make-ready functions to contracting companies. Oversight of
these contractors is weak. Officers complained about moving into unclean homes with serious
maintenance issues. To improve oversight, the embassy hired a LE staff facility inspector to
manage the housing inspection program. The designated contracting officer’s representatives, the
facility manager, and the maintenance supervisor are required to monitor contractor
performance.

        Informal Recommendation 15:        Embassy Buenos Aires should improve its oversight
           of contractors that perform make-ready functions.

Chancery

        Built in 1974, the chancery requires major upgrades and repairs. The 2006 OIG
inspection report and subsequent OBO area manager’s trip reports identified maintenance and
inadequate space issues, but these remain unresolved. OBO has no plans to construct a new
embassy compound in the next 15 years.

        The 2010 OBO project to rehabilitate the chancery’s heating, ventilation, and air
conditioning system remains unfunded. The OIG team received multiple complaints about poor
indoor air quality and varying temperatures throughout the building. The OIG team confirmed
several of the complaints. Poor moisture control has contributed to indoor mold, musty odors,
                                        29
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

skin irritation, and allergy-like symptoms. Employees work in either very cold or very hot
offices. Embassy management is aware of the substandard heating, ventilation, and air
conditioning system and is seeking OBO assistance. Three separate requirements are necessary
for the heating, ventilation, and air conditioning renovation project. Consolidation of the
requirements as one renovation project will assist the embassy in getting the project funded.
Preventive maintenance of building systems is important to ensure acceptable indoor air quality.

Recommendation 21: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Buenos Aires, should consolidate the three heating, ventilation, and air conditioning
requirements into one renovation project. (Action: OBO, in coordination with Embassy Buenos
Aires)

Recommendation 22: Embassy Buenos Aires, in coordination with the Bureau of Overseas
Buildings Operations, should request priority funding to rehabilitate the heating, ventilation, and
air conditioning at the chancery. (Action: Embassy Buenos Aires, in coordination with OBO)

        At least 10 electrical boxes above the drop ceiling on the second floor in the Drug
Enforcement Administration and the U.S. Military Group offices are missing covers—exposing
the electrical wiring in the boxes. The reason for this condition is unclear and presents a serious
safety hazard for any employees working nearby.

Recommendation 23: Embassy Buenos Aires should replace the missing covers on all electrical
boxes. (Action: Embassy Buenos Aires)

Space Utilization

        Some sections, in particular the consular section, have inadequate office space. Office
space in other sections is more generous. In addition, some staff now working outside the
chancery will have to move into it. To alleviate the tight office space conditions in the consular
and other sections and facilitate the shifting of staff into the chancery, the embassy requires the
assistance of space planners in OBO to thoroughly review and identify options for
accommodating all embassy staff.

Recommendation 24: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Buenos Aires, should conduct a survey of all chancery office space and develop a plan
for unused and underused space for new purposes and to accommodate future growth. (Action:
OBO, in coordination with Embassy Buenos Aires)

U.S. Government-Owned Properties

        The embassy has 17 government-owned residences that are in poor to fair condition. The
electrical, plumbing, and heating, ventilation, and air conditioning systems at the residences are
outdated. Old electrical systems create potential fire and life safety vulnerabilities. The floor
plans are also poorly configured. Maintenance costs exceed the routine maintenance and repair
budget. Prudent management includes identification and disposal of properties that are excess,
underutilized, or obsolete. The embassy has requested OBO assistance in developing a property
plan. The Department continues to operate under a mandate from Congress and the Government
                                        30
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Accountability Office to dispose of excess and underutilized properties. Properties that are
vacant without approved plans for renovation or reuse are not optimally used.

Recommendation 25: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Buenos Aires, should schedule a visit to Embassy Buenos Aires to conduct an
assessment of all excess and underutilized U.S. Government-owned properties and implement a
plan to reuse, renovate, or dispose of these properties. (Action: OBO, in coordination with
Embassy Buenos Aires)

Information Management

        The embassy operates an effective information management program that has received
excellent customer reviews in ICASS and OIG survey questionnaires. The information
management officer has created a team-oriented work environment. Staffing remains a constant
challenge and requires management’s attention. During the inspection, the information programs
officer and two LE positions were vacant.

        The OIG team identified several areas that require attention, including position
classification, administrator cross-training, the mail program, telephone operator procedures, and
the radio program contract. The OIG team reviewed systems management, telephone operations,
radio programs, and mail operations. Information security issues are covered in the classified
annex of this report.

Information Systems Officer

         An information management specialist serves as the embassy’s information systems
officer. Management has tried unsuccessfully to have the position formally reprogrammed to
reflect the duties actually being performed. The OIG team concluded that reprogramming entry-
level specialist position number 55152000 as a mid-level position would attract applicants with
the required experience level.

Recommendation 26: The Bureau of Human Resources, in coordination with Embassy Buenos
Aires and the Bureau of Western Hemisphere Affairs, should reclassify position number
55152000 from FP-04 specialist to FP-03 information systems officer. (Action: DGHR, in
coordination with Embassy Buenos Aires and WHA)

Information Programs Center

        The information management officer and the information programs officer are both
language-designated positions. The incumbents of these two positions can work effectively
without competence in Spanish. According to 13 FAM 221 b., employees who do not require
language competency for their jobs should not be trained unnecessarily. Unnecessary language
training is costly; each Spanish language-designated position costs a minimum of $105,000.

Recommendation 27: Embassy Buenos Aires, in coordination with the Bureau of Western
Hemisphere Affairs, should redesignate the language designation for the positions numbered

                                       31
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

  50259000 and 55164000 from Spanish 2/2 to 0/0 (language preferred). (Action: Embassy
  Buenos Aires, in coordination with WHA)

  Information Systems Center

           The information systems center has managed to maintain operations even though it is
  understaffed. The unit is staffed by one American specialist, four LE administrators, and one
  eligible family member. Management has requested additional staff repeatedly and has also
  requested authorization to fill an administrator position that has been frozen for several years.
  During the inspection, the unit lost a key administrator, further complicating the center’s staffing
  crisis. The OIG team suggested that management convert a vacant receptionist position to a help
  desk coordinator. The help desk coordinator could assist with fielding service requests in
  addition to providing administrator duties.

  Recommendation 28: Embassy Buenos Aires should convert position number A54801 to a help
  desk coordinator. (Action: Embassy Buenos Aires)

          Each system administrator in the information systems center specializes in an operational
  area. The unit does not have a formal cross-training program. As a result, several operational
  areas do not have capable backup administrators. In the event of failure in one area, the lack of
  trained backup administrators could cause network disruptions.

          Informal Recommendation 16: Embassy Buenos Aires should cross-train system
             administrators so that network operations have backup support.

  Mail Operations

         Embassy Buenos Aires does not have a policy for the Diplomatic Post Office. The OIG
  team identified instances of unauthorized usage in addition to shipments of prohibited items
  Only authorized personnel that meet the criteria identified in 14 FAM 724.2 may use the
  Diplomatic Post Office. An established diplomatic mail policy would inform embassy staff of
  approved usage and regulations and eliminate the likelihood of abuse.

  Recommendation 29: Embassy Buenos Aires should establish a diplomatic mail policy for
  usage of the Diplomatic Post Office. (Action: Embassy Buenos Aires)
(b) (5)




  Recommendation 30: (b) (5)




                                          32
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

      State Messaging and Archive Retrieval Toolset

              The embassy is not making effective use of the State Messaging and Archive Retrieval
      Toolset system. Several offices in the embassy that transmit information, which must be
      preserved according to 5 FAM 443.2, are not using this system for creating and archiving record
      emails. The embassy is not retaining record emails. The information management officer is
      aware of the issue and has agreed to implement a training program. Unless the embassy
      addresses this issue, important data needed for policy analysis and archival research will not be
      available in the future. It would be prudent for the information management officer to collaborate
      with embassy reporting offices on how to best address the issue.

      Recommendation 31: Embassy Buenos Aires should issue a management notice on use of the
      State Messaging and Archive Retrieval Toolset to archive official email and should require
      section heads to hold staff accountable for compliance with Department of State requirements.
      (Action: Embassy Buenos Aires)

              Informal Recommendation 17:         Embassy Buenos Aires should provide training for
                 mission personnel to create and administer record emails via the State Messaging
                 and Archive Retrieval Toolset system.

      Telephone Operators

             Two full-time operators handle switchboard duties with the support of other employees.
      A program review indicated that the operators miss a significant percentage of calls. The OIG
      team suggested that management evaluate the operator program and establish a process that
      increases effectiveness.

          Informal Recommendation 18: Embassy Buenos Aires should review the mission’s
             telephone operator program and implement a standard operating procedure for service.
(b) (5)




          Informal Recommendation 19:        (b) (5)



      Radio Technician

             The radio network is serviced by a local contractor who has been working for the mission
      for over 30 years. The contract has numerous internal control vulnerabilities resulting in waste
      and mismanagement. The contract’s deficiencies essentially allow the contractor to dictate his
      own salary. Numerous service order receipts were paid unnecessarily. The contractor provides
                                             33
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

private repair and maintenance service for the personal televisions, Internet, and computers of
the American staff, creating an inherent conflict of interest. Management is aware of the issue
but has been reluctant to act due to fear of legal repercussions.

Recommendation 32: Embassy Buenos Aires should not renew the current radio technician
contract and hire another radio technician. (Action: Embassy Buenos Aires)




                                       34
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Personal morale ranges from fair to good. Negative factors in Buenos Aires include high
inflation and cost of living, high crime, heavy traffic, import restrictions, and loss of rest and
recuperation travel. U.S. direct-hire employees receive a 35 percent cost of living adjustment.
There are abundant travel, sightseeing, cultural, and sporting options. Buenos Aires has good
health care services, private schools, shopping, nightlife, and restaurants.

Community Liaison Office

        The community liaison office actively organizes events and activities, which contribute
positively to staff and family morale. The office, consisting of two part-time community liaison
office co-coordinators, received good scores on ICASS and OIG surveys. The co-coordinators
participate in meetings of the emergency action committee, country team, the Ambassador and
DCM meeting with management section staff, housing board, and the post employment
committee.

Health Unit

        The regional medical officer, assisted by a LE nurse and receptionist, provides good
service to American staff and their families; however, the health unit’s space is inadequate. The
waiting room, receptionist area, and one of two patient examination rooms are too small. The
receptionist area is combined with the nurse’s office and does not provide adequate patient
privacy. The mission has solicited bids to renovate the health unit to increase patient
confidentiality and work flow.

         The unit provides limited health services to LE staff. The regional medical officer has
responsibility for other U.S. embassies in South America. A La Paz-based regional psychiatrist
visits the embassy twice per year and a Santiago-based physician also visits several times a year.
Local medical care is good. Since 2009, there has been one medical evacuation other than for
obstetrics.

Schools
       (b)(5)(b)(6)                                                       is the educational
institution most used by U.S. employees; it receives educational grant funding from the Office of
Overseas Schools. Parent satisfaction with the school is high, and the school, considered one of
the better in the region, has not had difficulties recruiting and retaining faculty. The embassy
characterizes its relationship with the school as outstanding. An embassy officer, appointed by
the Ambassador, is a voting member of the school board. Campus security is excellent.

American Recreation Association

       The American Recreation Association board of directors shut down its operations on June
30, 2012, after a former employee won a court case and received a severance award in the
amount of $13,000. Because Argentine authorities did not recognize the association as a legal

                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

entity, the court rendered a judgment against the individual board members. The association paid
the judgment out of its retained earnings. Embassy management concurred with the association’s
decision to liquidate assets and close its books. The Office of Commissary and Recreation
Affairs will review the final liquidation package and audit report of the association and will take
over any remaining assets as required by 6 FAM 558.2.




                                       36
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Management Controls
        The annual chief of mission management controls statement of assurance, dated June
2012, shows that the embassy completed risk assessment questionnaires; the housing program
complies with FAM requirements; the embassy meets the Federal Managers Financial Integrity
Act of 1982 management control review requirements, which includes a copy of the property
management report, a copy of the vehicles inventory, and a copy of the memorandum certifying
the controlled substances inventory. The evaluation of the systems of management controls
provided reasonable assurance that there were no outstanding control weaknesses. The statement
of assurance identified and reported a list of safety, health, and environmental management
issues discussed earlier in this report.

Adjudication Reviews

        According to 9 FAM 41.113 PN18, supervisory review of every consular officer’s visa
issuances and refusals is an important management control. As his immediate supervisor, the
DCM is responsible for reviewing a sampling of the consular section chief’s adjudications in
accordance with 7 FAH-1 H-648.1-3. He is not doing so. The DCM’s Consular Consolidated
Database password expired 2 months before the inspection, and he had not reviewed the
prescribed percentage of the consular section chief’s 322 visa adjudications in the 3 months
before his password expired.

Recommendation 33: Embassy Buenos Aires should update the deputy chief of mission’s
password for consular adjudications, retrain him on adjudication review procedures, and alert
him when the consular section chief has adjudicated referral or other visa cases that he must
review. (Action: Embassy Buenos Aires)

Gifts Officer

        The 2012 Embassy Buenos Aires delegation of responsibilities and authority does not
include a gifts officer. Guidelines in 3 FAM 4122.1 state that the administrative officer should be
the designated gifts officer. Guidelines in 2 FAM 960 outline the policy for solicitation and
acceptance procedures, including gifts of cash and goods and services from foreign governments,
real property, invitational travel, Fourth of July, refurbishment, and other gifts. A gifts policy is
needed to avoid confusion and potential conflicts of interests.

Recommendation 34: Embassy Buenos Aires should designate a gifts officer and issue a policy
on procedures for the solicitation and acceptance of different types of gifts. (Embassy Buenos
Aires)




                                        37
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Buenos Aires should implement a structured first- and second-
tour officer professional development and mentoring program for the Ambassador’s approval
that assigns a senior officer to serve as a mentor and advisor to the group and includes scheduled
presentations to the group by embassy section chiefs and others on substantive and career
development issues. (Action: Embassy Buenos Aires)

Recommendation 2: Embassy Buenos Aires, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of Human Resources, should reprogram permanently the
mid-level environment, science, technology, and health position currently detailed from the
economic section. (Action: Embassy Buenos Aires, in coordination with WHA and DGHR)

Recommendation 3: Embassy Buenos Aires should designate alternate space for the Federal
benefits unit that is appropriate in size and configuration and as close to the consular section as
possible, coordinate an appropriate office design with the Social Security Administration
regional representative at Embassy San José, and relocate the Federal benefits unit. (Action:
Embassy Buenos Aires)

Recommendation 4: Embassy Buenos Aires should assign supervision of the fraud prevention
unit and the assistant regional security officer-investigator to the chief of the consular section.
(Action: Embassy Buenos Aires)

Recommendation 5: Embassy Buenos Aires should review and update the position
descriptions of the locally employed staff in the American citizens services unit and reclassify
the positions if appropriate. (Action: Embassy Buenos Aires)

Recommendation 6: The Bureau of Human Resources, in coordination the Bureau of
Administration, should review and update the Foreign Affair Manual and Foreign Affairs
Handbook provisions related to economic conditions and local compensation plans. (Action:
DGHR, in coordination with A)

Recommendation 7: The Bureau of Human Resources should revise its current policy on
making salary adjustments and follow Argentine prevailing practice by conducting two salary
surveys per year during periods of high inflation. (Action: DGHR)

Recommendation 8: Embassy Buenos Aires, in coordination with the Bureau of Human
Resources, should review its life insurance and supplemental retirement policies and contracts
every 5 years to ensure they comply with prevailing practice and local labor law requirements
and meet the needs of the locally employed staff. (Action: Embassy Buenos Aires, in
coordination with DGHR)

Recommendation 9: Embassy Buenos Aires, in coordination with the Bureau of Human
Resources, should update its locally employed staff handbook to reflect current conditions of
employment, ethical standards, and disciplinary processes, including terminations. (Action:
Embassy Buenos Aires, in coordination with DGHR)


                                        38
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy Buenos Aires should include a work requirement for all
supervisors to complete performance evaluations on time and should rate the supervisors
accordingly. (Action: Embassy Buenos Aires)

Recommendation 11: Embassy Buenos Aires should train the second Equal Employment
Opportunity counselor. (Action: Embassy Buenos Aires)

Recommendation 12: Embassy Buenos Aires should recruit, appoint, and train locally
employed Equal Employment Opportunity liaisons using materials from the Office of Civil
Rights Web site. (Action: Embassy Buenos Aires)

Recommendation 13: Embassy Buenos Aires should create an Equal Employment
Opportunity and Federal Women’s Program section on its SharePoint site that includes policies
and procedures in English and Spanish and issue an administrative notice in English and Spanish
to its employees with the same information. (Action: Embassy Buenos Aires)

Recommendation 14: Embassy Buenos Aires should regularly publish a schedule for Equal
Employment Opportunity activities, including townhall meetings, diversity training, and
newcomer orientation. The Equal Employment Opportunity counselors and the human resources
officer should develop the schedule for deputy chief of mission approval. (Action: Embassy
Buenos Aires)

Recommendation 15: Embassy Buenos Aires should conduct a formal cost-benefit analysis of
outsourcing a portion of its voucher processing to the Bureau of the Comptroller and Global
Financial Services Post Support Unit and select the appropriate low cost option. (Action:
Embassy Buenos Aires)

Recommendation 16: Embassy Buenos Aires should determine the most efficient procedures
for processing vouchers by studying the practice of other embassies or by conducting a site visit
and should revise its voucher processing procedures to reflect those findings. (Action: Embassy
Buenos Aires)

Recommendation 17: Embassy Buenos Aires should establish a housing coordinator position
to manage the housing program. (Action: Embassy Buenos Aires)

Recommendation 18: The Bureau of Overseas Buildings Operations should fund a suitable
warehouse for Embassy Buenos Aires and provide the embassy with a relevant funding timeline.
(Action: OBO)

Recommendation 19: The Office of Foreign Missions, in coordination with Embassy Buenos
Aires, should remedy reciprocity inequities between the Argentine Embassy and Embassy
Buenos Aires concerning the importation, exportation, sales, and transfer procedures related to
private and government-owned vehicles and household effects. (DS, in coordination with
Embassy Buenos Aires)

Recommendation 20: Embassy Buenos Aires should update its housing policy and guidelines
and include the roles and responsibilities of the general services office, facility maintenance unit,


                                        39
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

landlords for government-owned properties, and short-term leases in the revisions. (Action:
Embassy Buenos Aires)

Recommendation 21: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Buenos Aires, should consolidate the three heating, ventilation, and air conditioning
requirements into one renovation project. (Action: OBO, in coordination with Embassy Buenos
Aires)

Recommendation 22: Embassy Buenos Aires, in coordination with the Bureau of Overseas
Buildings Operations, should request priority funding to rehabilitate the heating, ventilation, and
air conditioning at the chancery. (Action: Embassy Buenos Aires, in coordination with OBO)

Recommendation 23: Embassy Buenos Aires should replace the missing covers on all
electrical boxes. (Action: Embassy Buenos Aires)

Recommendation 24: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Buenos Aires, should conduct a survey of all chancery office space and develop a plan
for unused and underused space for new purposes and to accommodate future growth. (Action:
OBO, in coordination with Embassy Buenos Aires)

Recommendation 25: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Buenos Aires, should schedule a visit to Embassy Buenos Aires to conduct an
assessment of all excess and underutilized U.S. Government-owned properties and implement a
plan to reuse, renovate, or dispose of these properties. (Action: OBO, in coordination with
Embassy Buenos Aires)

Recommendation 26: The Bureau of Human Resources, in coordination with Embassy
Buenos Aires and the Bureau of Western Hemisphere Affairs, should reclassify position number
55152000 from FP-04 specialist to FP-03 information systems officer. (Action: DGHR, in
coordination with Embassy Buenos Aires and WHA)

Recommendation 27: Embassy Buenos Aires, in coordination with the Bureau of Western
Hemisphere Affairs, should redesignate the language designation for the positions numbered
50259000 and 55164000 from Spanish 2/2 to 0/0 (language preferred). (Action: Embassy
Buenos Aires, in coordination with WHA)

Recommendation 28: Embassy Buenos Aires should convert position number A54801 to a
help desk coordinator. (Action: Embassy Buenos Aires)

Recommendation 29: Embassy Buenos Aires should establish a diplomatic mail policy for
usage of the Diplomatic Post Office. (Action: Embassy Buenos Aires)

Recommendation 30: (b) (5)


Recommendation 31: Embassy Buenos Aires should issue a management notice on use of the
State Messaging and Archive Retrieval Toolset to archive official email and should require


                                       40
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

section heads to hold staff accountable for compliance with Department of State requirements.
(Action: Embassy Buenos Aires)

Recommendation 32: Embassy Buenos Aires should not renew the current radio technician
contract and hire another radio technician. (Action: Embassy Buenos Aires)

Recommendation 33: Embassy Buenos Aires should update the deputy chief of mission’s
password for consular adjudications, retrain him on adjudication review procedures, and alert
him when the consular section chief has adjudicated referral or other visa cases that he must
review. (Action: Embassy Buenos Aires)

Recommendation 34: Embassy Buenos Aires should designate a gifts officer and issue a
policy on procedures for the solicitation and acceptance of different types of gifts. (Embassy
Buenos Aires)




                                       41
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Buenos Aires should establish a semiannual review to
assess and report to the Ambassador and the Bureau of Western Hemisphere Affairs progress
toward meeting Integrated Country Strategy objectives.

Informal Recommendation 2: Embassy Buenos Aires should institute a process for
apportioning mission travel and representational funds to sections based on section travel and
representational plans tied to the embassy’s strategic priorities.

Informal Recommendation 3: Embassy Buenos Aires should establish a first- and second-tour
officer duty roster for ancillary duties so that all first- and second-tour officers participate in such
activities and schedule biannual training for first- and second-tour officers to prepare them for
the duties they are asked to undertake.

Informal Recommendation 4: Embassy Buenos Aires should maintain one shared public
affairs calendar.

Informal Recommendation 5: Embassy Buenos Aires should order its Facebook contest prizes
in one grant per fiscal year and write no-cost amendments specifying the recipients and dates.

Informal Recommendation 6: Embassy Buenos Aires should require the information officer to
oversee Facebook content.

Informal Recommendation 7: Embassy Buenos Aires should find less expensive alternatives
to its contest prizes and pursue additional strategies to enlarge its social media audience.

Informal Recommendation 8: Embassy Buenos Aires should limit program grants to the
Cordoba center until the center can ensure that goods purchased with capital grants are not
vulnerable to seizure by creditors.

Informal Recommendation 9: Embassy Buenos Aires should require all passport applicants to
use courier pass back for U.S. passports, except in cases of emergency.

Informal Recommendation 10: Embassy Buenos Aires should conduct a validation study of B
visa travelers as soon as possible and establish a regular schedule of B visa validation studies
thereafter.

Informal Recommendation 11: Embassy Buenos Aires should issue an administrative notice
to embassy staff outlining supervisory responsibility for ensuring that employee position
descriptions are accurate in accordance with Department of State regulations.

                                         42
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Buenos Aires should issue an administrative notice
on workplace bullying and provide remedial training to staff as needed.

Informal Recommendation 13: Embassy Buenos Aires should conduct weekly unannounced
visits to the off-site warehouse.

Informal Recommendation 14: Embassy Buenos Aires should review customer complaints
and modify its motor pool vehicle policy to include alternatives to motor pool services, such as
taxis.

Informal Recommendation 15: Embassy Buenos Aires should improve its oversight of
contractors that perform make-ready functions.

Informal Recommendation 16: Embassy Buenos Aires should cross-train system
administrators so that network operations have backup support.

Informal Recommendation 17: Embassy Buenos Aires should provide training for mission
personnel to create and administer record emails via the State Messaging and Archive Retrieval
Toolset system.

Informal Recommendation 18: Embassy Buenos Aires should review the mission’s telephone
operator program and implement a standard operating procedure for service.

Informal Recommendation 19: (b) (5)




                                       43
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                 Name      Arrival Date
Ambassador                                              Vilma Martinez            09/09
Deputy Chief of Mission                                Jefferson Brown            05/10
Chiefs of Sections:
   Management                                         James Dayringer            10/11
   Consular                                             Daniel Perrone           07/11
   Political                                            Alexis Ludwig            08/10
   Executive Advisory Office                           Jaime Gutierrez           07/11
   Economic                                             Timothy Stater           07/12
Environment, Science, Technology, and Health           Mark Cullinane            08/11
   Public Affairs                                     Marcia Bosshardt           07/11
   Regional Security                                  Kristen Sivertson          07/12
Other Agencies:
   Foreign Agricultural Service                  Melinda Dunn Salyards           08/11
Animal Phytosanitary Inspection Service                    Yvette Perez          04/08
   Department of Defense                            Col. Anthony Cook            06/12
   U.S. Military Group                                 Col. Patrick Hall         08/11
   Foreign Commercial Service                          James Koloditch           07/12
   Legal Attaché                                         Michael Eckel           07/12
Drug Enforcement Administration                       Stephen Gonzalez           07/11
Department of Homeland Security–Immigration                Raul Aguilar          08/11
and Customs Enforcement
Department of Homeland Security-Transportation                Joe Catan          06/10
Security Administration




                                    44
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
Department       Department of State

DCM              Deputy chief of mission

EEO              Equal Employment Opportunity

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

ICS              Integrated Country Strategy

LE               Locally employed (staff)

OBO              Bureau of Overseas Buildings Operations

OIG              Office of Inspector General

WHA              Bureau of Western Hemisphere Affairs




                            45
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
